January 12, 2021
Via U.S. Priority Mail
Office of the Clerk
Attn: Donald Baker
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Walter D. Barnette v. HBI, L.L.C., et al.
No. 20-321
Our File No. 3172.2

Dear Mr. Baker:
Pursuant to your telephone call of January 7, 2021, please accept this letter as Respondent’s
Corporate Disclosure Statement, with apologies for the oversight. Pursuant to Supreme Court Rule
15.3, 40 copies of this letter are included herewith.
CORPORATE DISCLOSURE STATEMENT
Pursuant to this Court’s Rule 29.6, Respondent HBI, L.L.C. states that Homebuyers Incorporated,
a Nebraska corporation, owns 100% of the membership interest in HBI, L.L.C., and Eleven
Talents, LLC, a Nebraska limited liability company, is the sole shareholder of Homebuyers
Incorporated. No publicly held company owns 10% or more of HBI, L.L.C.’s membership
interest.
Thank you for your assistance and attention to this matter.
Sincerely,

Michael S. Degan
cc:

Christina M. Martin
Andrea Gosnold-Parker

